March 15, 2007

TIMOTHY C. HANEY
ACTING VICE PRESIDENT, NORTHEAST AREA

SUBJECT: Audit Report – Address Management System Information – Northeast Area
         (Report Number DR-AR-07-001)

This report presents the results of our self-initiated audit of the Address Management
System (AMS) information in the Northeast Area (Project Number 06XG053DR000).
This is one in a series of reports on AMS information. The information in this report will
be included in a nationwide capping report assessing management of AMS information.
Our objective was to assess the U.S. Postal Service’s management of delivery AMS
quality street review results to ensure address information is correct and complete for
effective processing and delivery of mail in the Northeast Area.

Postal Service officials in the Northeast Area’s Boston, Connecticut, Maine,
Massachusetts, New Hampshire/Vermont, and Western New York Districts effectively
managed delivery AMS quality review results for approximately 4 percent (549 of
12,557) of their routes according to Postal Service guidelines. However, opportunities
exist for area officials to implement best management practices from the New York
Metro Area’s New York District to improve the quality of AMS data used in processing
and delivering mail. Approximately 179,059 AMS data errors may exist in the selected
Northeast Area Districts on the 12,008 routes for which street reviews were not
conducted. If the area officials implemented a program similar to the New York District,
they could reduce errors by 31.84 percent, saving the Postal Service $4,590,875 over
the next 10 years. We will report $4,590,875 of funds put to better use in our
Semiannual Report to Congress.

For fiscal years (FY) 2005 and 2006, the Northeast Area Districts improved their
Delivery Point Sequence (DPS) mail volume percentages. According to the
Transformation Plan, the Postal Service’s goal is to sort 95 percent of letters by DPS by
2010. A decrease in AMS data errors will help Northeast Area officials achieve the DPS
goal of 95 percent and will reduce operating costs.

We recommended the Acting Vice President, Northeast Area, implement an AMS quality
review program similar to the New York District’s that includes training delivery supervisors or
their designees in AMS quality street reviews. We also recommended establishing an annual
district schedule of AMS quality street reviews and directing delivery supervisors or their
designees to review delivery routes annually. Finally, we recommended the AMS office
establish a tracking system for street reviews.

Management agreed with our findings and recommendations, including the $4,590,875
of funds put to better use, and has initiatives planned addressing the issues in this
report. Management provided comments based on our discussion draft, and in
subsequent discussions with the U.S. Postal Service Office of Inspector General (OIG),
management stated that by the end of FY 2007, the Northeast Area will develop a
standardized street review training program for district AMS offices to administer to
delivery unit employees. Beginning in FY 2008, delivery units will perform street
reviews of all routes, along with the annual route inspections. District AMS officials will
provide weekly feedback to the delivery units on the status of completed street reviews.
Further, the Northeast Area will continue to conduct random AMS quality street reviews
in each district and track the results. Management’s comments and our evaluation of
these comments are included in the report.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Charles E. Bravo
    Kathy A. Ainsworth
    Steve M. Dearing
    James H. Adams
    Julius E. Locklear
    Charles K. Lynch
    Edward F. Phelan, Jr.
    John W. Mike Powers III
    Kimberly J. Peters
    Deborah A. Kendall
Address Management System Information                                                     DR-AR-07-001
 Northeast Area



                                           INTRODUCTION
Background                      Address management is the foundation for how the Postal
                                Service moves mail. Over the years, the Postal Service
                                has worked to obtain the highest quality address
                                information possible for internal use and for its customers.
                                In March 1993, the Postal Service implemented Delivery
                                Point Sequence (DPS). DPS is the process of arranging
                                barcoded mail according to the carrier’s line of travel
                                (LOT) to eliminate manual mail sorting, improve efficiency,
                                and reduce costs.

                                In 1994, the Postal Service established the Address
                                Management System (AMS) to capture, correct, and
                                complete address information to enhance the efficiency of
                                mail processing and delivery through automation.
                                Address information in the AMS is captured in sort
                                programs used to process mail in DPS. A developer
                                creates sort programs as part of the Sort Program System
                                (SPS), which is part of the National Directory Support
                                System (NDSS). DPS sort programs are transferred to a
                                Mail Processing Barcode Sorter (MPBCS) or a Delivery
                                Barcode Sorter (DBCS).1

                                Mail that cannot be processed on automated equipment
                                requires manual processing, which is less efficient and is
                                costly to the Postal Service. As illustrated in Table 1,
                                during fiscal year (FY) 2005, the Postal Service processed
                                94 billion pieces of letter mail, of which 72 billion pieces
                                (76.8 percent) were processed on automated equipment
                                and the remaining 22 billion pieces (23.2 percent)
                                manually. During FY 2006, the Postal Service processed
                                93.3 billion pieces of letter mail; 74.4 billion pieces (79.7
                                percent) were processed on automated equipment and
                                the remaining 18.9 billion pieces (20.3 percent) manually.




1
 DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.




                                                        1
Address Management System Information                                                         DR-AR-07-001
 Northeast Area




                                     Table 1. Postal Service Letter Mail Processed in Pieces
                                                   Fiscal Years 2005 and 2006

                                                                                                    Cased
                        Fiscal    DPS Letters     Cased Letters     Total Letter       DPS          Letter
                         Year       (Pieces)         (Pieces)         (Pieces)      Percentage    Percentage
                        2005     72,270,819,511   21,846,660,416   94,117,479,927      76.8          23.2
                        2006     74,404,492,341   18,929,268,976   93,333,761,317      79.7          20.3


                         Source: Postal Service Web-Enabled Enterprise Information System (WebEIS)

                                 In 2003, the Postal Service outlined a strategy to enhance
                                 address quality in its Intelligent Mail Corporate Plan. The
                                 strategy includes improving the address database, filling
                                 change of address orders, and using Address Change
                                 Service. To improve the address database, the Postal
                                 Service established a delivery AMS quality review
                                 program to evaluate the quality of AMS data and meet the
                                 goal of 100 percent accurate AMS data nationwide.

                                 As part of the quality review program, National Customer
                                 Support Center (NCSC) teams annually conduct street
                                 reviews of 40 routes in each Postal Service district
                                 nationwide. The NCSC team selects 40 city or rural
                                 delivery routes based on Postal Service guidelines. For
                                 every route selected within a ZIP Code, two alternate
                                 routes are selected.2

                                 The street reviews include:

                                 •   Identifying all possible delivery addresses included in
                                     Address Information System products and the NDSS
                                     files.

                                 •   Validating the number of possible delivery addresses
                                     assigned to each carrier route.

                                 •   Validating the correct LOT or delivery sequence for
                                     each carrier route.

                                 •   Assigning ZIP+4 Codes to so addresses will be
                                     compatible with automated equipment.

2
  The Deliver/AMS Quality Street Review Guidelines, FY 2005 Revision 1, state that the NCSC will review 40 routes
annually. Northeast Area officials informed the OIG that in FY 2006, because of a shortage of resources, the NCSC
reduced the number of street reviews they performed annually.




                                                        2
Address Management System Information                                    DR-AR-07-001
 Northeast Area



                           •   Verifying the standardization of addresses according to
                               Publication 28, Postal Addressing Standards, dated
                               July 2006.

                           •   Reviewing AMS database products to meet the needs
                               and expectations of Postal Service customers.

                           The NCSC team reviews districts with street review scores
                           below 98 percent every 6 months. Districts scoring from
                           98 to 100 percent receive annual reviews. Districts
                           scoring 99 percent or higher may receive abbreviated
                           route reviews.

                           In addition to the NCSC street reviews, AMS district
                           officials conduct street reviews of routes to maintain the
                           accuracy of AMS data. Carriers also identify AMS data
                           changes based on their street deliveries. The carriers
                           note address changes in their AMS edit books and submit
                           the information to the AMS district officials for review and
                           correction in the AMS database.

                           As the Postal Service continues to process mail on
                           automated equipment, the quality of address information
                           takes on new importance. Use of correct and complete
                           address information can reduce costs to the Postal
                           Service.

Objective, Scope,          Our objective was to assess the Postal Service’s
and Methodology            management of the delivery AMS quality review results to
                           ensure address information is correct and complete for
                           effective processing and delivery of mail in the Northeast
                           Area. We obtained data on FYs 2005 and 2006 delivery
                           AMS quality reviews from the NCSC to analyze the routes
                           reviewed, AMS data errors identified, and performance
                           scores. We selected the Northeast Area’s Boston,
                           Connecticut, Maine, Massachusetts, New Hampshire/
                           Vermont, and Western New York Districts, and the




                                              3
Address Management System Information                                                    DR-AR-07-001
 Northeast Area



                               New York Metro Area’s New York District to perform our
                               reviews, based on the NCSC performance scores
                               identified by delivery AMS quality review results.3

                               We obtained and reviewed prior AMS review results for
                               the New York District, which showed street review
                               performance scores consistently above 99 percent. As a
                               best management practice, we evaluated whether the
                               New York District’s AMS data maintenance program was
                               feasible for other Postal Service districts. Our review of
                               FY 2005 performance scores showed that the Boston,
                               Connecticut, Maine, Massachusetts, New
                               Hampshire/Vermont, and Western New York Districts
                               were consistently below 98 percent. In addition, the New
                               Hampshire/Vermont and Western New York Districts’ FY
                               2006 scores were below 98 percent. (See Appendix A.)
                               We evaluated these districts’ AMS data maintenance
                               process to determine whether they could improve their
                               programs. We also reviewed these districts’ FYs 2005
                               and 2006 DPS information to compare their DPS volumes
                               to the Postal Service’s goal.4

                               We conducted this audit from September 2006 through
                               March 2007 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls as we considered necessary under the
                               circumstances. We discussed our observations and
                               conclusions with management officials and included their
                               comments where appropriate. We relied on computer-
                               processed information from the Postal Service AMS. We
                               did not audit the system, but performed a limited data
                               integrity review to determine whether our data were
                               reliable.




3
  We selected the Boston, Connecticut, Maine, and Massachusetts Districts based on their historically low
performance scores and their FY 2005 AMS quality street review results. We selected the New Hampshire/Vermont
and Western New York Districts based on their FY 2006 AMS quality street review results. We selected the New
York District based on its historically high performance scores and improvements to the AMS process.
4
  We plan to conduct a review to identify opportunities to generate revenue, reduce costs, and improve customer
service. That review will incorporate DPS percentages,




                                                       4
Address Management System Information                                    DR-AR-07-001
 Northeast Area




Prior Audit Coverage       The OIG has issued two audit reports that are directly
                           related to our audit objective.

                            Address Management Systems – Southwest Area – Rio
                            Grande District (Report Number DR-AR-06-001, January
                            25, 2006). The report outlined opportunities to improve
                            the quality of AMS data and put $988,945 to better use,
                            representing processing and delivery costs over the next
                            10 years. Management agreed with our findings and
                            recommendations and the monetary impact of $988,945
                            in funds put to better use.

                            Address Management Systems – Great Lakes Area
                            (Report Number DR-AR-06-008, September 30, 2006).
                            The report outlined opportunities to improve the quality of
                            AMS data and put $2,678,506 to better use, representing
                            processing and delivery costs over the next 10 years.
                            Management agreed with our findings and
                            recommendations and the monetary impact of
                            $2,678,506 in funds put to better use.




                                              5
Address Management System Information                                           DR-AR-07-001
 Northeast Area


                                    AUDIT RESULTS
 Address Management           Postal Service officials in the Northeast Area’s Boston,
 System Information           Connecticut, Maine, Massachusetts, New Hampshire/Vermont,
 Northeast Area               and Western New York Districts effectively managed delivery
                              AMS quality review results for approximately 4 percent of their
                              routes. However, opportunities exist for area officials to
                              implement best management practices from the New York
                              Metro Area’s New York City District. By reviewing additional
                              routes, officials can improve the quality of AMS data used to
                              process and deliver mail.

                              In FYs 2005 and 2006, the Boston, Connecticut, Maine,
                              Massachusetts, New Hampshire/Vermont, and Western New
                              York Districts had 12,557 total routes, as illustrated in Chart 1.
                              The NCSC team reviewed 2 percent (260 of 12,557) of these
                              routes according to Postal Service guidelines. The team
                              identified 3,835 of errors, approximately 15 errors per route.
                              The districts did not achieve the 98 percent AMS target goal.
                              (See Appendix A.) The NCSC teams did not review the
                              remaining 98 percent (12,297 of 12,557) of the routes. During
                              the same period, the Connecticut, New Hampshire/Vermont,
                              and Western New York Districts’ AMS officials reviewed
                              another 2 percent (289 of 12,297) of the routes. The remaining
                              96 percent (12,008 of 12,297) of the routes were not reviewed.
                              (See Appendix B.)

                                        Chart 1. Boston, Connecticut, Maine, Massachusetts, New
                                          Hampshire/Vermont, and Western New York Districts:
                                               Number and Percentage of Routes Reviewed




                                             Routes
                                               Not
                                             Reviewed
                                               12,008
                                                96%                                  Routes
                                                                                    Reviewed
                                                                                    by NCSC
                                                                                      260
                                                                                       2%



                                                            Routes
                                                          Reviewed by
                                                            District
                                                            Officials
                                                              289
                                                              2%
                                        Source: Postal Service NCSC and Northeast Area Officials




                                                 6
Address Management System Information                                                          DR-AR-07-001
 Northeast Area




                                      Based on FYs 2005 and 2006 NCSC team reviews and the
                                      error rate for each route, approximately 179,059 5 AMS data
                                      errors may exist in these six districts on the 12,008 routes for
                                      which street reviews were not conducted.

                                      Currently, the Boston, Connecticut, Maine, Massachusetts,
                                      New Hampshire/Vermont, and Western New York Districts’
                                      programs are administered by local AMS officials. As
                                      illustrated in Table 2, at the time of our review, AMS officials
                                      performed quality street reviews for 549 routes using local
                                      AMS staff. However, AMS officials did not use available
                                      district resources, such as delivery supervisors or appropriate
                                      designees, to conduct additional street reviews for the
                                      remaining 12,008 routes. District officials stated that the
                                      remaining routes were not reviewed because AMS staff was
                                      limited.




5
  Our projection of the possible number of errors that may exist in routes not reviewed is based on the formula NCSC
uses in its street reviews. To project the error rate for each district, we used the number of errors identified in NCSC
street reviews, determined an error rate for each route, and applied the rate to the number of routes not reviewed.
The 179,059 projected errors includes:
 •   Boston: 30,109 (625 errors ÷ 40 routes reviewed = 16 errors per route × 1,927 routes not reviewed).
 •   Connecticut: 51,868 (1,267 errors ÷ 80 routes reviewed = 16 errors per route × 3,275 routes not reviewed).
 •   Maine: 10,800 (627 errors ÷ 40 routes reviewed = 16 errors per route × 689 routes not reviewed).
 •   Massachusetts: 47,647 (665 errors ÷ 40 routes reviewed = 17 errors per route × 2,866 routes not reviewed).
 •   New Hampshire/Vermont: 10,997 (391 errors ÷ 40 routes reviewed = 10 errors per route × 1,125 routes not
     reviewed).
 •   Western New York: 27,638 (260 errors ÷ 20 routes reviewed = 13 errors per route × 2,126 routes not reviewed).




                                                           7
Address Management System Information                                                      DR-AR-07-001
 Northeast Area




                                       Table 2. Route Reviews Conducted in the Boston, Connecticut, Maine,
                                      Massachusetts, New Hampshire/Vermont, and Western New York Districts



                                                                     NCSC        District                     Total
                                                                     Route        Route          Total       Routes
                                        Selected        Total       Reviews      Reviews        Routes         Not
                                        Districts      Routes      Conducted    Conducted      Reviewed     Reviewed

                                     Boston              1,967             40              0           40        1,927
                                     Connecticut         3,3826            80             27          107        3,275
                                     Maine                   729           40              0           40             689
                                     Massachusetts       2,906             40              0           40        2,866
                                     New                    1232           40             67          107         1125
                                     Hampshire/VT
                                     Western NY          2.341             20           195           215        2,126


                                     Total              12,557            260           289           549       12,008

                                               Source: Postal Service NCSC and Northeast Area Officials

                                    During FY 2006, Northeast Area officials directed district AMS
                                    staff to complete a minimum of 40 route reviews if the district
                                    did not receive a NCSC review. Since NCSC will not perform
                                    reviews in FY 2007, Area officials plan to review 20 routes in
                                    each district by the end of the fiscal year.

                                    In addition, the AMS review module in the associate
                                    supervisors’ training course attended by districts’ delivery
                                    supervisors did not include information on AMS quality street
                                    reviews. The module provided information only on edit book
                                    updates and how to enter the changes into the automated
                                    system for submission to district officials.7 Although not
                                    included in our review, we did note the Southeast New
                                    England District established an AMS model office program,
                                    which included training local delivery unit supervisors or their
                                    designees to perform route reviews at post offices with five or
                                    more routes. The Southeast New England District established
                                    the program to improve AMS data quality and performance
                                    scores.

6
  The Connecticut District received two street reviews in FY 2005, one from NCSC and one from the Northeast Area.
Each review consisted of 40 routes. The number of routes in this table represents the average number of routes from
both reviews as reported in the street reviews.
7
  During the audit, Northeast Area officials expressed concerns that the current postal policy regarding edit books
does not provide specific guidelines on the timing of edit books submissions.. We plan to address this issue in our
capping report to Postal Service Headquarters.




                                                        8
Address Management System Information                                                           DR-AR-07-001
 Northeast Area



                                      The Postal Service established AMS to capture, correct, and
                                      complete address information to enhance the efficiency of mail
                                      processing and delivery through automation. Address
                                      information is captured in sort programs used to process mail
                                      in DPS. DPS was created to eliminate manual mail sorting,
                                      improve efficiency, and reduce costs.

                                      As illustrated in Table 3, from FY 2005 to FY 2006, the
                                      Northeast Area districts improved their DPS mail volume
                                      percentages. According to the Transformation Plan,8 Postal
                                      Service officials are working towards a DPS goal of 95 percent
                                      by 2010. A decrease in AMS data errors will assist the
                                      Northeast Area officials in achieving the DPS goal and will
                                      reduce operating costs.9
                                                  Table 3. Northeast Area Districts’ DPS Percentages

                                                     Northeast Area District        FY 2005          FY 2006
                                                           Locations               Percentage       Percentage

                                                  Albany                               86.5             86.5
                                                  Boston                               84.9             86.3
                                                  Connecticut                          78.2             81.7
                                                  Maine                                78.1             81.9
                                                  Massachusetts                        79.6             82.1
                                                  New Hampshire/ Vermont               75.4             81.2
                                                  Southeast New England                81.6             85.8
                                                  Western New York                     84.1             86.5

                                                  Northeast Area Average         81.1                   84.1
                                                  National Average               76.7                   79.7
                                                                      Source: WebEIS


                                      If the Boston, Connecticut, Maine, Massachusetts, New
                                      Hampshire/Vermont, and Western New York Districts
                                      implemented a program similar to the New York City District’s,
                                      they could reduce errors by 31.84 percent,10 which would save
                                      the Postal Service $4,590,875 over the next 10 years. We will
                                      report $4,590,875 of funds put to better use in our Semiannual
                                      Report to Congress. (See Appendix C.)


8
  United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
9
  We plan to conduct a review to identify opportunities to generate revenue, reduce costs, and improve customer
service. That review will incorporate DPS percentages,
10
   The New York Metro Area’s error reduction rate was 71.05 percent, and the control group’s error reduction rate
was 29.74 percent. The New York Metro Area’s error reduction rate was divided by the control group’s error
reduction rate for a proposed error reduction rate of 31.84 percent. The expectation is that the districts will reduce
their error rate by 31.84 percent by implementing a program similar to the New York District.




                                                            9
Address Management System Information                                    DR-AR-07-001
 Northeast Area




 New York City District       The New York District has 2,202 city routes. In FY 2005, the
                              NCSC team reviewed 2 percent (40 of 2,202) of these routes
                              according to Postal Service guidelines. The team identified
                              195 AMS errors, approximately five errors per route, and the
                              district received a 99.21 percent AMS performance score from
                              the street review. The NCSC team did not review the
                              remaining 98 percent of the routes (2,162 of 2,202).

                              In 1998, the New York District began an extensive AMS quality
                              review program, administered by local AMS officials, which
                              required delivery units to complete AMS street reviews using
                              existing staff. As part of the program, New York District
                              officials added an AMS review module to the associate
                              supervisors’ training course given to New York delivery
                              supervisors. In addition, the New York AMS office established
                              AMS review schedules for all delivery units’ existing staff, and
                              an accountability system that monitors the completion of AMS
                              street reviews conducted by delivery supervisors or their
                              designees. As a result, the New York District used existing
                              staff to significantly increase its review coverage.

                              In FY 2005, using their AMS review program, New York District
                              officials established a goal of reviewing all routes annually,
                              including routes reviewed by the district and the NCSC. The
                              existing staff reviewed and implemented corrective actions for
                              the AMS errors identified. AMS reviews conducted by delivery
                              unit staff are implemented by all districts in the New York Metro
                              Area, and the program has been very successful. Since its
                              inception, all districts have achieved significant increases in
                              AMS performance scores. The historical average performance
                              score for the New York District is 99.03 percent.

                              The Deputy Postmaster General and Chief Operating Officer
                              issued a memorandum dated August 23, 2006, on address
                              management national street reviews. The memorandum
                              stated that for FY 2007, trained field personnel would conduct
                              all delivery AMS street reviews. The address management
                              national street review team will not conduct on-site street
                              reviews in FY 2007 and will not have funding to assist the field
                              with travel costs. The FY 2007 delivery AMS street review
                              schedule will be coordinated through the area and
                              headquarters, and the NCSC will provide AMS street review
                              materials.




                                             10
Address Management System Information                                                       DR-AR-07-001
 Northeast Area




 Recommendation                       We recommend the Acting Vice President, Northeast Area,
                                      implement an Address Management System quality street
                                      review program similar to the New York City District’s that:

                                      1. Provides training in Address Management System quality
                                         street reviews.

 Management’s                         Management agreed with our findings, recommendations
 Comments                             and the $4,590,87511 in funds put to better use.
                                      Management stated that by the end of FY 2007, the
                                      Northeast Area will develop a standardized street review
                                      training program for district AMS offices to administer to
                                      delivery unit employees. Management’s comments, in their
                                      entirety, are included in Appendix D.

 Recommendation                       2. Establishes a district schedule of annual Address
                                         Management System quality street reviews and directs
                                         delivery supervisors or their designees to review delivery
                                         routes annually.

 Management’s                         Management stated that during FY 2008, districts will
 Comments                             implement a program to perform street reviews of all routes
                                      in conjunction with annual route inspections. Management
                                      stated that delivery units will be responsible for conducting
                                      the reviews.

 Recommendation                       3. Establishes a tracking system to monitor completed street
                                         reviews.

 Management’s                         Management stated that the district AMS offices will provide
 Comments                             the delivery unit supervisors with the number of reviews
                                      completed each week. Management also stated that the
                                      Northeast Area will continue to conduct random AMS
                                      quality street reviews in each district and track the score
                                      and number of errors detected.




11
     Management agreed to this revised figure in subsequent discussions held on February 28, 2007.




                                                         11
Address Management System Information                                DR-AR-07-001
 Northeast Area




 Evaluation of                  Management’s comments are responsive to
 Management’s                   recommendations 1, 2, and 3. Management’s actions taken
 Comments                       and planned should correct the issues identified in the
                                findings.




                                            12
              Address Management System Information                                                                             DR-AR-07-001
               Northeast Area


                                                            APPENDIX A
                                            NCSC REVIEW RESULTS FOR THE NORTHEAST AREA
                                                                                       Historical   Achieved
                                                                      Achieved         Average        98 %
                                                         FY 2005        98%            Score as      Score               Date of      Achieved
                  Northeast Area District    FY 2005      Score       Score in           of FY       History   FY 2006   FY 2006    98% Score in
         No.            Locations            Score %      Date        FY 2005            2005        Years     % Score    Score       FY 2006

          1     Albany                        98.07      10/05/04       Yes             97.31         No          **        **           **
          2     Boston                        95.92       5/02/05       No              96.75         No        97.40    4/20/06        No
          3     Connecticut                   96.52       6/13/05       No              95.51         No        94.60    11/15/05       No
          4     Maine                         96.86       6/01/05       No              97.17         No          **        **           **
          5     Massachusetts                 96.32       4/27/05       No              96.89         No          **        **           **
          6     New Hampshire/Vermont           *            *           *              97.91         No        97.91    10/18/05       No
          7     Southeast New England         97.1        5/16/05       No              96.95         No        98.09    4/18/06        Yes
          8     Western New York              98.09      10/19/04       Yes             96.68         No        97.12    11/15/05       No

                                                 Source: Postal Service NCSC and Northeast Area Officials

 * The NCSC review was started in FY 2005, but was not completed until FY 2006 because of time constraints.
** The NCSC review was not completed because of limited resources.




                                                                                  13
Address Management System Information                                                                                               DR-AR-07-001
 Northeast Area


                               APPENDIX B
            FYS 2005 AND 2006 ROUTE REVIEWS FOR THE BOSTON,
                  CONNECTICUT, MAINE, MASSACHUSETTS,
            NEW HAMPSHIRE/VERMONT, AND WESTERN NEW YORK
                                DISTRICTS12



                                                       3500                            97%

                                                                                                                    99%
                  Total Number of Routes in District




                                                       3000


                                                       2500
                                                                                                                                                  91%
                                                                        98%
                                                       2000


                                                       1500
                                                                                                                                    91%

                                                       1000                                              95%

                                                        500                                                                                 9%
                                                                                 3%               5%           1%             9%
                                                                  2%
                                                          0
                                                                                                                             New       Western New
                                                                 Boston       Connecticut         Maine        Mass.
                                                                                                                          Hampshire/VT    York

     Total Routes Reviewed                                         40            107               40           40            107           215
     Total Routes Not Reviewed                                    1,927          3,275             689         2,866         1,125         2,126



                                                              Source: Postal Service NCSC and Northeast Area Officials




12
     A total of 549 routes were reviewed by NCSC and local AMS officials. A total of 12,008 routes were not reviewed.




                                                                                             14
Address Management System Information                                  DR-AR-07-001
 Northeast Area


                           APPENDIX C
              CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $4,590,875 in funds put to better use over the next 10 years for the
Boston, Connecticut, Maine, Massachusetts, New Hampshire/Vermont, and Western
New York Districts. The following assumptions were used in the calculation of the
$4,590,875.

                                                Fiscal    Funds Put to
                   Northeast Area Districts      Year      Better Use

                 Boston                         2005         $1,416,366
                 Connecticut                    2005          1,156,716
                 Maine                          2005            228,069
                 Massachusetts                  2005          1,063,787
                 New Hampshire/Vermont          2006            138,303
                 Western New York               2006            587,634

                 Total for a 10-Year Period                  $4,590,875

                       Assumptions of the AMS cost savings model

1.   We used the New York Metro Area as our standard for predicting the cost savings
     possible for the Boston, Connecticut, Maine, Massachusetts, New Hampshire/
     Vermont, and Western New York Districts.

2.   We assumed that all Postal Service areas other than New York Metro had not
     implemented an error reduction program during the period of the AMS street
     reviews. These areas were our control group for estimating the net benefit of the
     New York Metro program.

3.   The AMS National Street Review Model is used to calculate cost savings.
     Therefore, we assumed that it realistically represented costs that the Postal
     Service could save if it implemented a program that would reduce the incidence of
     AMS errors. However, in our opinion, any costs saved would have to be related to
     a reduction in overtime or casual hours; therefore, labor rates used should be
     hourly overtime rates (which was not the case).

4.   We used the AMS National Street Review Model unchanged, with one exception:
     the model had FY 1999 labor rates imbedded. We updated these rates to reflect
     FY 2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5.   We assumed that the cost of implementing an error reduction program would be
     negligible.




                                           15
Address Management System Information                                    DR-AR-07-001
 Northeast Area


6.   We assumed that the average cost per error for the Boston, Connecticut, Maine,
     Massachusetts, New Hampshire/Vermont, and Western New York Districts would
     remain constant before and after program implementation.

7.   If the Boston, Connecticut, Maine, Massachusetts, New Hampshire/Vermont, and
     Western New York Districts began implementing a program immediately, FY 2007
     would be devoted to setup and training. We assumed that cost savings would not
     begin until FY 2008. Our calculation of savings (funds put to better use) is a
     discounted cash flow analysis over a 10-year period. The amount we will report in
     our Semiannual Report to Congress is the present value of the estimated savings
     over the 10 years.

8.   AMS errors can never be reduced to zero. We assumed the practical lower limit to
     be a 1 percent error rate. However, this constraint did not affect the calculation for
     the Boston, Connecticut, Maine, Massachusetts, New Hampshire/Vermont, and
     Western New York Districts.

9.   We assumed that error rates on rural routes would respond to an error reduction
     program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District
    because of uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                             16
Address Management System Information           DR-AR-07-001
 Northeast Area


                 APPENDIX D. MANAGEMENT’S COMMENTS




                                        17
